                U.S. Department of Agriculture

                   Office of Inspector General
                          Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Unified School District 257
          Iola, Kansas




                      Report No. 27010-15-KC
                                October 2003
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL - AUDIT
                                        Great Plains Region
                                   8930 Ward Parkway, Suite 3016
                                  Kansas City, Missouri 64114-3302
                                TEL: 816.926.7667 FAX: 816.926.7676




DATE:         March 26, 2004

REPLY TO
ATTN OF:      27010-15-KC

SUBJECT:      National School Lunch Program – Unified School District 257,
              Iola, Kansas

TO:           Darlene Barnes
              Acting Regional Administrator
              Food and Nutrition Service
              1244 Speer Boulevard, Suite 903
              Denver, CO 80204


This report presents the results of our audit of the National School Lunch
Program (NSLP)1 as operated by Unified School District 257. This district served as the
local school food authority (SFA) under an agreement with the Kansas State
Department of Education (KSDE), which served as the State agency (SA). We
evaluated policies and procedures over meal accountability and oversight of the
program operation to include the accuracy of collections and accounting processes and
the use of program funds. We found the Annual Financial Status Summary submitted to
the SA was inaccurate. The SFA officials did not perform cost analyses prior to
contracting with the purchasing cooperative, the SFA incorrectly allocated the
purchasing cooperative administrative fee, and the purchasing cooperative did not
publicly advertise for bids. Also, the SFA did not use available reports as a
management control over meal accountability. FNS’ October 3, 2003, written response
to the draft report shows general concurrence with our recommendations (see
exhibit A).

BACKGROUND:

The KSDE serves as the SA for administering the program within the State, and the
United States Department of Agriculture’s Food and Nutrition Service (FNS) serves as
the program’s funding agency. For school year 2001/2002 operations, the SFA
submitted claims totaling about $330,5002 in FNS reimbursement and about $9,500 in
SA reimbursement. The SFA, located in Iola, Kansas, is responsible for operating the
1
  Includes the School Breakfast Program (SBP).
2
  SFA received FNS reimbursement under the NSLP, SBP, and After School Care Snack Program. Our
review was limited to the NSLP and SBP.
Darlene Barnes                                                                          2


NSLP in accordance with regulations. Each SA is required to enter into a written
agreement with FNS to administer the NSLP/SBP, and each SA enters into agreements
with SFA’s to oversee day-to-day operations.

On June 4, 1946, Congress passed the National School Lunch Act,3 now the
Richard B. Russell National School Lunch Act (the Act), which authorizes Federal
school lunch assistance. Section 4 of the Act authorizes general cash assistance
payments for all lunches served to children in accordance with the provisions of the
NSLP and additional special cash assistance for lunches served under the NSLP to
children determined eligible for free or reduced-price lunches. The States are
reimbursed at various rates per lunch, depending on whether the child was served a
free, reduced-price, or full-price (paid) lunch. The fiscal year 2002 funding for the NSLP
was $6 billion for meal reimbursements of approximately 4.7 billion lunches. The
Kansas SA received approximately $58 million for the NSLP and $14 million for the SBP
in Federal reimbursements for fiscal year 2002. For school year 2001/2002, Kansas
provided State funds of approximately $2.5 million to SFA’s.

OBJECTIVES:

The objectives of our audit were to evaluate controls over the administration of the
NSLP and SBP. We evaluated policies and procedures over meal accountability and
oversight of program operation. To accomplish this, we determined (1) the accuracy of
collections and accounting for reimbursed meals, (2) the accounting and use of program
funds relating to the SFA’s procurement of goods and services, and (3) the accounting
for the SFA’s school food service operations.

SCOPE AND METHODOLOGY:

Our review primarily covered NSLP/SBP operations from July 1, 2001, through
December 31, 2002, concentrating on operations since July 1, 2002. However, records
for other periods were reviewed, as deemed necessary. We performed audit work at
the FNS Regional office, Kansas SA, and the SFA in Iola, Kansas. We selected the
SFA based on its location. Audit work was performed at the SFA during March and
April 2003. We reviewed NSLP/SBP operations at all seven schools and made
observations at one elementary school. Our audit was performed in accordance with
Government Auditing Standards.

To accomplish our review objectives, we reviewed FNS, SA, and SFA regulations,
policies, procedures, manuals, and instructions governing NSLP/SBP operations, and
interviewed officials at each level.    We also reviewed the SA’s most recent
administrative review of the SFA’s NSLP/SBP operations and the SFA’s corrective
actions taken in response to the administrative review findings and recommendations.
We also (1) evaluated the SFA’s procedures used to gather and consolidate monthly
meal claims and determined whether reports were verified for accuracy, (2) evaluated
edit check controls used to assure the reasonableness of claims for reimbursement,
(3) reviewed the SFA’s accounting system, which included a review of program funds
3
    42 U.S. Code 1751.
Darlene Barnes                                                                                  3


and interest on those funds, (4) analyzed the SFA’s methods used for procurement of
goods and services, and (5) analyzed the monitoring efforts of the SFA through a review
of the onsite accountability reviews conducted during school year 2001/2002.

FINDINGS:

Finding No. 1:

We found the SFA did not properly allocate revenue and expenses according to the
prescribed State Chart of Accounts. In general, these conditions occurred because the
SFA’s personnel were unaware of Federal and State requirements and because SFA
personnel did not have adequate training to fully use the capabilities of their meal
counting system, including optimizing the use of summary reports. As a result, reports to
the SA were in error, because of the use of improper accounting procedures.

Federal regulations require that internal controls must maintain effective control and
accountability for all grants and subgrants, cash, real and personal property, and other
assets. The grantee and subgrantees must adequately safeguard all such property and
assure that it is used solely for the authorized purposes.4

a.        The SFA commingled a la carte sales with reimbursable meal sales. The SFA
          improperly combined a la carte sales from students’ meal card/accounts with
          reimbursable meal sales, although the SFA’s automated system used for
          counting meals had the capability to record these sales separately. The SFA
          was not aware of the prescribed State Chart of Accounts, and they did not use
          the available capabilities of their automated system to separate sales. As a
          result, the revenue ledgers were inaccurate and the Annual Financial Status
          Summary submitted to the SA was inaccurate. Additionally, because of
          corrupted computer data files, the exact amount of a la carte sales from students’
          meal card/accounts could not be determined.

          SA procedures require that student reimbursable meal sales be separately
          reported from a la cart sales.5

          We asked SFA personnel to generate reports from the automated meal counting
          system. They replied they had not received recent training or specific training
          focused on report queries. They also could not explain all the functions the
          automated system could perform. The SFA personnel advised that they were not
          aware if the system could separate a la carte sales (purchased with students’
          meal card/accounts) from reimbursable meal sales. However, the vendor of the
          automated system told us that the system could separate the sales. He also
          stated the system could provide various summary reports that could be used to
          analyze revenue and meal count information.



4
    7 CFR 3016.20(b)(3).
5
    Accountability and Record-Keeping for the School Nutrition Programs (July 2002), page 17.
Darlene Barnes                                                                                      4


b.        The SFA misallocated snack program reimbursement. The SFA incorrectly
          allocated all snack program reimbursement to Account 1614 (Student Sales
          Snacks) on the financial status summaries instead of allocating the Federal grant
          reimbursement of about $24,470 to Account 1990 (Miscellaneous) and Federal
          snack reimbursements of about $6,870 to Account 4550 (Child Nutrition
          Programs) on the financial status summaries. The SFA officials were not aware
          of the prescribed State Chart of Accounts and, as a result, the Annual Financial
          Status Summary submitted to the SA was inaccurate.

          SA procedures require that revenue from other local sources be reported as
          Account 1990 (Miscellaneous) and Federal reimbursements be reported in
          Account 4550 (Federal Sources – Child Nutrition Programs).6

c.        The SFA did not allocate the fee charged by the purchasing cooperative to the
          correct account. The purchasing cooperative required its vendors to include the
          purchasing cooperative’s administrative/handling fee (2 percent of purchases) in
          the vendors’ bid prices for each item. While the SFA was aware of the
          percentage rate charged by the purchasing cooperative, the SFA did not
          separately identify the cooperative charges, which were included in the vendors’
          billings. We estimated the SFA’s account for the cost of food and nonfood
          supplies was overstated about $3,700, because of the SFA’s practice of not
          separating the administrative/handling fee from food costs.

          The SA’s accounting handbook shows administrative/handling fees should be
          recorded in a separate account from food purchases.7 FNS officials advised the
          administrative fee should be separated to ensure the fee is properly treated as a
          nonfood expense.

Recommendation No. 1:

Instruct the SA to require the SFA to develop procedures to separately record
reimbursable meal sales from a la carte sales, properly allocate snack program
reimbursements, and properly allocate the administrative/handling fee in the food
service account, as specified by the SA. The SFA should also be encouraged to obtain
sufficient training to enable personnel to fully use the capabilities of their meal counting
system, including optimizing the use of summary reports from the automated system to
manage the program.

FNS Response:

The FNS response to the draft report showed FNS concurred with the recommendation
and will instruct the SA to require the SFA to complete the recommended actions.




6
    Accountability and Record-Keeping for the School Nutrition Programs (July 2002), pages 17-18.
7
    Accountability and Record-Keeping for the School Nutrition Programs (July 2002), page 19.
Darlene Barnes                                                                                    5


OIG Position:

We can accept the management decision once we receive specific timeframes for the
completion of the proposed actions.

Finding No. 2:

The SFA did not ensure its purchasing cooperative publicly advertised for bids
(newspapers, Internet, etc.) in purchasing for food and nonfood supplies, as is required
with purchases over $10,000. According to officials of the purchasing cooperative,
invitations to bid were directly solicited from current suppliers and they were unaware of
the Federal and State regulations. As a result, the cooperative’s procurements did not
assure maximum open and free competition. Also, the SFA did not perform the
required cost analysis before using the services of a purchasing cooperative, as they
were unaware of the regulations requiring the analysis. As a result, the SFA may not
have recognized a possible cost savings.

Federal regulations8 require “procurement by sealed bids (formal advertising). Bids are
publicly solicited and a firm-fixed-price contract (lump sum or unit price) is awarded to
the responsible bidder whose bid, conforming with all the material terms and conditions
of the invitation for bids, is the lowest in price.” The SA requires, “For procurement of
services or supplies costing in aggregate in excess of $10,000, competitive sealed bids
(formal advertising) are publicly solicited or a Request for Proposal is publicized.”9 The
Iola, Kansas, SFA spent $124,562 in food purchases and $8,334 in nonfood purchases
during the 2001/2002 school year.10

We did not note any specific SA requirements that purchasing cooperatives had to
follow with respect to those provisions contained in agreements with food service
management companies. In contrast, the SA had specified that certain required
provisions be included in contracts between SFA’s and food service management
companies, including provisions for Equal Employment Opportunity, access to books
and records, and record retention.11 Officials of the SFA stated that there was no
written contract with the cooperative, and the written agreement was limited to
describing the administrative fee. We believe there needs to be a written contract
between SFA’s and cooperatives covering all applicable Federal and State
requirements.

In addition, a cost analysis or price comparison was not prepared before the SFA
agreed to use the services of the purchasing cooperative, as required under SA policies
8
  7 CFR 3016.36(d)(2).
9
  KSDE Food Service Facts Handbook, Chapter 8.
10
   FNS officials stated that one standard for aggregation is to count purchases from a single source
aggregated over the period of a year. However, as long as the agency doing the procurement is not
disaggregating its procurements with the purpose of avoiding the requirements for performing formal
procurements, the period of time for aggregation may be shorter, even much shorter, than a year. In
such cases where shorter aggregation periods result in procurement dollar values that are under the
formal procurement thresholds, the use of simple procurement procedures is justified.
11
   KSDE Food Service Facts Handbook, Chapter 8.
Darlene Barnes                                                                      6


and guidelines. SA procedures12 require schools to perform some form of cost or price
analysis in connection with every purchase. The cost analysis or price comparison
could have resulted in identifying possible savings to the SFA.

Recommendation No. 2:

Require the SA to coordinate with the SFA to develop a written contract with the
purchasing cooperative and ensure this purchasing cooperative complies with the
contract terms and applicable Federal and State procurement requirements. Require
the SA to instruct the SFA to perform a cost analysis or price comparison to determine
the most economical means for obtaining the products currently obtained through the
purchasing cooperative.

FNS Response:

The FNS response to the draft report showed FNS concurred with the recommendation
and will require the SA to coordinate with the SFA to complete the recommended
actions.

OIG Position:

We can accept the management decision once we receive specific timeframes for the
completion of the proposed actions.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing corrective actions taken or planned and the timeframes for
accomplishing final action. Please note that the regulation requires management
decisions to be reached on all findings and recommendations within 6 months from the
date of report issuance.

We appreciate the assistance provided to us during our review.


/s/ Herbert E. Carpenter for

DENNIS J. GANNON
Regional Inspector General
  for Audit




12
     KSDE Purchasing for Child Nutrition Programs.
Darlene Barnes                                 7



EXHIBIT A – FNS RESPONSE TO THE DRAFT REPORT
